IN THE SUPREME COURT OF THE UNITED STATES
No. 19-7
Seila Law LLC,
Petitioner,
V.

Consumer Financial Protection Bureau,
Respondent.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for the Chamber of Commerce of the United
States of America, hereby certify that on this 29th day of July, 2019, I caused three
copies of the Brief of the Chamber of Commerce of the United States of America as

Amicus Curiae in Support of Petitioner to be served by overnight delivery on the
following counsel:
Kann on K. Shanm ugam
Paul, Weiss, Rifkind, Wharton &
Garrison LLP
2001 K Street, NW
Washington, DC 20006
kshanmugam@paulweiss.com
Attorney for Petitioner

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
Attorney for Respondent

I further certify that all parties required to be served have been served.

Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
a pincus@mayerbrown.com

